                             FOR OFFICIAL USE ONLY




  REVIEW OF AWARD FOR STREAMLINED
 TECHNOLOGY ACQUISITION RESOURCES
FOR SERVICES (STARS) GOVERNMENT-WIDE
     ACQUISITION CONTRACT (GWAC)
  REPORT NUMBER A050213/Q/6/P07001
          DECEMBER 27, 2006




                             FOR OFFICIAL USE ONLY
                                                  FOR OFFICIAL USE ONLY

              REVIEW OF AWARD FOR STREAMLINED TECHNOLOGY
               ACQUISITION RESOURCES FOR SERVICES (STARS)
              GOVERNMENT-WIDE ACQUISITION CONTRACT (GWAC)
                    REPORT NUMBER A050213/Q/6/P07001


                              TABLE OF CONTENTS

                                                                  Page

REPORT LETTER                                                       1

INTRODUCTION                                                        2

 Background                                                         2

 Objective, Scope and Methodology                                   2

RESULTS OF REVIEW                                                   4

 Brief                                                              4

 Proactive Approach to Controls                                     4

 Accuracy of OMB Data                                               5

 Ensuring Fair Opportunity                                          6

 Split Procurements                                                 6

 Other Direct Costs                                                 7

 Out of Scope Task Orders                                           9

 Disproportionate Subcontracting                                   10

MANAGEMENT COMMENTS                                                12

INTERNAL CONTROLS                                                  12

APPENDICES

 Management Response                                               A-1

 Report Distribution                                               B-1




                                                  FOR OFFICIAL USE ONLY
                                                              FOR OFFICIAL USE ONLY

              REVIEW OF AWARD FOR STREAMLINED TECHNOLOGY
               ACQUISITION RESOURCES FOR SERVICES (STARS)
              GOVERNMENT-WIDE ACQUISITION CONTRACT (GWAC)
                    REPORT NUMBER A050213/Q/6/P07001


                                    INTRODUCTION


Background

The 8(a) Streamlined Technology Acquisition Resources for Services (STARS)
Government-Wide Acquisition Contract (GWAC) is a small business set-aside contract
for technology solutions. The Small Business GWAC Center (Center) is responsible for
STARS program development, contract awards, and contract administration. The
Center’s goal is to provide small business firms a fair opportunity to compete for
technology solutions work in the federal marketplace. The program encourages the
small businesses to develop and become “best in class” technology providers.

The Center awarded STARS contracts to 413 vendors on June 1, 2004. STARS
contracts are indefinite delivery, indefinite quantity contracts that have a base period of
3 years and two 2-year options. The overall program ceiling is $15 billion with no
individual contract ceilings.

Federal customers can procure a variety of information technology services and
associated products from STARS vendors, as STARS covers eight Functional Areas
(FAs) designated by the North American Industry Classification System (NAICS). The
Center maintains a list of vendors qualified to perform in each of the eight FAs.

As of November 17, 2005, 159 of approximately 425 vendors in the program (37%) had
performed under the contract. The total order value from June 1, 2004 through
November 17, 2005 was $273,198,092. The average order value of task orders was
about $300,000, but orders ranged in value from approximately $4,000 to $20.8 million.
To procure services through STARS, the ordering contracting officer (OCO) must have
received a delegation of procurement authority for STARS from the Center. Currently
there are approximately 400 OCOs with delegation authority .


Objective, Scope and Methodology

The objective of the review was to determine if the Center’s controls over the
administration of the 8(a) STARS contracts were adequate to provide reasonable
assurance that the contracts were being used properly.




                                         2                   FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY

We identified control objectives related to ensuring fair opportunity for STARS vendors;
reporting accurate program data to OMB; and prohibiting split procurements, out of
scope task orders, and disproportionate subcontracting and other direct costs.

We conducted the review during June 2005 through December 2005. Most of our
control testing was based on a judgmental sample of ten task orders selected on
November 17, 2005. The sample task orders included the seven largest dollar task
orders and represented 18 percent of the total value of all task order awards between
June 1, 2004 and November 17, 2005.

To accomplish the objective of our review, we:

  1. Reviewed prior Office of Inspector General reports on the Federal Technology
     Services Client Support Centers.
  2. Reviewed a prior field pricing support report of the STARS contract award.
  3. Attended an 8(a) STARS industry day.
  4. Reviewed the 8(a) STARS contract and ordering guidelines.
  5. Reviewed the 8(a) STARS website for available information.
  6. Reviewed Federal Managers' Financial Integrity Act (FMFIA) statements,
     performance data, OMB data, and task order specific information.
  7. Held discussions with Center officials regarding Center responsibilities, current
     program controls, control limitations, and planned control improvements.
  8. Developed a flowchart showing the processes involved with the Center’s
     oversight of the STARS program.
  9. Analyzed current program controls.
 10. Reviewed a judgmental sample of ten task orders to test controls and expanded
     the review sample where warranted.
 11. Attended one of the Center’s biweekly review meetings and reviewed the
     Center’s biweekly review meeting records.
 12. Reviewed 8(a) STARS OCO delegation certifications.
 13. Reviewed controls over vendor subcontracting limitations.

The review was conducted in accordance with generally accepted Government auditing
standards.




                                        3                  FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY


                                RESULTS OF REVIEW


Brief

The results of our review indicate that the Center has taken a proactive approach to
developing and maintaining controls to ensure ordering contracting officers (OCOs) and
8(a) STARS vendors use the GWAC properly. Current control initiatives include
conducting OCO and vendor training, reviewing task order information for every task
order, and tracking task orders through completion. We believe controls as they relate
to the accuracy of OMB data, fair opportunity, split procurements, and other direct costs
were reasonable, and with minor adjustments, the Center can enhance assurance over
program compliance in those areas. However, despite the Center’s ambitious attempt to
monitor every task order, undetected out of scope task orders and disproportionate
subcontracting have occurred. We believe the Center can improve controls in these
areas by focusing on high-risk task orders and developing standardized review
procedures.


Proactive Approach to Controls

OCOs are responsible for complying with all procurement regulations and requirements
related to awarding task orders under the STARS contract, including but not limited to
competition requirements and ensuring price reasonableness on individual task orders.
As the overall contract administrator, the Center has been proactive in developing and
administering program controls to monitor use of the contract that provide additional
assurance of proper use. We determined that while these program controls generally
provide adequate assurance that the program will be used properly, much of the
information used by the Center to evaluate program use is provided by the OCOs and
vendors; accordingly, the effectiveness of the controls depends in large part upon the
accuracy of the information provided. Some of the controls include:

•   Stakeholder Training. Since the start of the program, the Center has provided
    training for vendors and OCOs to educate them in program usage. The Center
    requires OCOs to complete training before it will authorize them to award STARS
    task orders. OCO authorizations consist of a delegation of authority certification,
    which the Center has developed to ensure that OCOs are aware of program
    requirements.

•   OCO Reporting Requirements. OCOs must submit copies of the following to the
    Center after awarding each task order: Statement of work (SOW), award form (GSA
    Form 300, SF1449, DD1155, or similar form), and a basic award order information
    form (information form), which summarizes pertinent task order information.

•   Task Order Reviews. The Center evaluates the task order information submitted by
    the OCO for appropriateness to functional area, appropriateness to the program,


                                        4                   FOR OFFICIAL USE ONLY
                                                              FOR OFFICIAL USE ONLY

    and appropriate levels of subcontracting and other direct costs. Currently, the Center
    reviews 100 percent of the task orders in the STARS program. For orders greater
    than $3 million, the Center follows-up with the OCO to ensure that the OCO provided
    fair opportunity to all eligible vendors prior to award, as required by FAR 19.805-
    1(a)(2).

•   Subcontracting Reports. The Center requires that STARS vendors submit semi-
    annual subcontracting reports certifying the level of subcontracting each vendor has
    used. The Center reviews the reports to monitor subcontracting levels in accordance
    with Small Business Administration requirements and FAR 52.219-14, which require
    the contractors to limit subcontracting to 50 percent over the life of the STARS
    contract. The Center has advised vendors that a lack of compliance with this
    reporting requirement constitutes sufficient cause to terminate the vendor for default.

•   Bi-weekly Review Meetings. Twice weekly, Center officials meet to discuss issues
    raised as a result of task order review or stakeholder requests and inquiries. Since
    the start of our review, the Center has developed a form to summarize the task
    orders discussed in the meetings, which should improve the Center’s review
    process.

•   Past Performance Questionnaire. The Center requires STARS clients to submit a
    past performance questionnaire at completion of performance of a task by a STARS
    vendor. The Center maintains the questionnaires and uses them to ensure that
    program vendors are providing adequate services.


Accuracy of OMB Data

We determined that the Center’s reporting process provides reasonable assurance that
its annual reports to the Office of Management and Budget (OMB) are accurate.

As an Executive Agent for OMB, the Center must fulfill specific responsibilities to meet
OMB’s expectations. To track the Center’s effectiveness as an Executive Agent, OMB
requires the Center to report program information. The Center’s annual report to OMB
includes: number of tasks that were subject to fair opportunity, number of tasks that
included performance-based statements of work, task order types, level of competition,
exceptions to the fair opportunity process, award values, and socio-economic
breakdown.

To maintain program information, the Center requires all non-GSA delegated OCOs to
report task order information to the Center after task order awards and modifications.
The Center maintains an internal database that automatically records the specifics of
task order awards made by GSA OCOs. When external OCOs submit task order
information, the Center manually adds the data into its database. We believe there is
potential for inaccuracy in reported information from external OCOs. However, Center
officials advised that they further ensure OMB report data accuracy by reconciling OCO


                                         5                   FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY

reported task order information to task order information reported by STARS vendors in
their semiannual subcontracting reports.

During our review, we reconciled the information from a sample of two task orders to the
Center’s task order database. We then compared the Center’s task order database
totals to the most recent OMB report. In both analyses, we were able to reconcile task
orders to the OMB report.


Ensuring Fair Opportunity

We determined that the Center’s controls to ensure fair opportunity are reasonable, and
we believe that one of the controls could be simplified for greater efficiency.

The Center has developed and implemented controls to ensure OCO compliance with
fair opportunity regulations in FAR 19.805-(1)(a). FAR 19.805-(1)(a) requires that every
STARS vendor in the applicable functional area be given an opportunity to bid on all
orders greater than $3 million.

As part of the Center’s delegation process, the Center trains OCOs on fair opportunity
requirements and advises OCOs that they are responsible for (1) determining the
appropriate functional area (FA), and (2) ensuring that tasks are competed among all
vendors in the applicable FA. The Center reviews all task orders over $3 million and
requests verification of fair opportunity from the OCOs.

To test fair opportunity controls, we reviewed a judgmental sample of five task orders at
or above $3 million. In addition, we briefly reviewed the bi-weekly meeting records for
fair opportunity issues. We determined that the Center verified fair opportunity for all
orders in our sample by requesting that the OCO provide the number of quotes. In
addition, we noted that the bi-weekly meeting records demonstrated that the Center has
addressed fair opportunity in the past.

While current controls are adequate, we believe the Center could increase assurance of
fair opportunity and eliminate the current process of following up with OCOs by adding
fair opportunity questions to the information form the Center already requires from
OCOs for each task order.


Split Procurements

We determined that the Center’s controls over split procurement violations are
reasonable and could also be enhanced to ensure OCO and vendor compliance.

In accordance with FAR 19.805-1(a)(2), sole source orders up to $3 million are
allowable in the STARS program. However, orders exceeding $3 million require fair
opportunity to compete, which allows all vendors in the applicable FA fair opportunity to



                                        6                   FOR OFFICIAL USE ONLY
                                                                         FOR OFFICIAL USE ONLY

bid. FAR 19.805-1(c) further supports the limitation by stating that a proposed 8(a)
requirement with an estimated value exceeding $3 million shall not be divided into
several requirements for lesser amounts in order to use 8(a) sole source procedures for
award to a single firm. Evidence of split procurements involving OCOs and STARS
vendors could significantly harm the reputation of the STARS program. We suggest,
therefore, that the Center consider a periodic structured review to monitor stakeholders’
compliance with the prohibition on split procurements.

Current Center controls include formal stakeholder training and informal task order
database review. Stakeholder training ensures that vendors and OCOs are aware of
sole source limitations. Center officials advised that the database reviews are designed
to ensure stakeholder compliance with those requirements. The Center advised that
during the database review, they look for patterns in the data to identify split
procurements, and they monitor orders close to the $3 million threshold. If any
suspicious activity is detected, the Center proceeds with a more in-depth review of the
statements of work (SOW) for those task orders.

We reviewed the task order database as of November 17, 2005, for potential split
procurements and identified two examples of multiple sole source orders from the same
vendor to the same client on the same date that totalled more than $3 million. While our
follow-up on the questionable orders revealed that neither was a split procurement, we
noted that the Center did not annotate either order as a potential split procurement.

We encourage the Center to continue with current controls over split procurements.
However, we suggest a more formal approach to database reviews on a periodic basis.
By performing various database sorts to assist in identifying attributes that could
indicate a split procurement on a quarterly basis, the Center could enhance its controls.
Quarterly reviews should also help the Center identify sole source tasks that have
expanded past the 8(a) competitive threshold through modifications.


Other Direct Costs (ODC)

We determined that the Center’s controls to monitor other direct costs (ODCs) are
reasonable and could also be enhanced to provide greater assurance that task order
costs are predominately for services and not for other direct costs (ODCs) or costs not
pre-priced under the contract (NLIs).1

The STARS program could be at risk if OCOs and vendors do not comply with
restrictions over items not pre-priced under the contract (ODCs and NLIs), especially on
noncompetitive task orders valued under $3 Million, where the risk is increased that

1
 The Office of Regional Counsel issued an opinion that, in part, explained that ODCs are items not pre-
priced as they pertain to time-and-material and labor-hour contracts, and that the term, ODC, does not
pertain to fixed price task orders. For purposes of this report, we refer to items not pre-priced under the
contract as they pertain to fixed price contracts as non-labor items (NLIs), although we note that these
costs may include labor costs that were not pre-priced such as subcontractor labor, training services, etc.


                                                 7                       FOR OFFICIAL USE ONLY
                                                              FOR OFFICIAL USE ONLY

ODC/NLI pricing may not be fair and reasonable. Center officials stated that controls
over ODCs have increased through their implementation of training and reviews;
however, we did not evaluate whether these steps resulted in improved controls.

The STARS contract is to be used primarily to purchase technology services, with
hardware, software, and related supplies being procured as part of an integrated
solution. On May 6, 2006, the Center modified the STARS contract to improve controls
over ODCs. The modification requires that: (1) for all tasks that include ODC items, the
ODC items must be firm fixed price at the time of award; (2) the predominate work in
terms of total dollar value for each task is to consist of services from the pre-established
contract labor categories; and (3) while hardware and software are permitted ODCs,
these items are to be subordinate to the services-based solution and must not be
separately orderable. The Center has taken other steps to mitigate risks of excessive
ODCs, including formal training of OCOs and vendors and by reviewing task order
documentation.

We reviewed a judgmental sample of ten task orders, including the seven largest dollar
task orders in the program at the time of review, to test controls over ODCs. In the final
analysis, we found no ODC restriction violations. However, based on input from the
Heartland Office of Regional Counsel, the Center should advise OCOs that the true test
of whether un-priced (non-labor) items in a task order (whether it is time and material,
labor hour, or firm fixed price) are appropriate, is to look at the industry standard – the
North American Industrial Classification System (NAIC) codes under which the
procurement falls.

In addition, Regional Counsel advised that the ODC modification language is limited to
time-and-material and labor-hour contracts in some instances, while the language
appears to apply to all task orders in other instances, thereby creating confusion. While
it appears that the intent of the Center in modifying the contract was to ensure that all
task orders awarded were primarily IT services as they pertain to each functional area,
current contract language does not clearly address items that were not pre-priced (NLIs)
as they pertain to fixed price contracts. This situation could put the STARS program at
risk for abuses through award of fixed price task orders.

Accordingly, the Center could enhance controls over items not pre-priced under the
contract by requiring OCOs to (1) include total ODCs/NLIs on the award documentation
and/or the information form submitted to the Center and (2) prepare a justification,
based on industry standards, for awarding task orders where ODCs/NLIs exceed 50
percent of the task order dollars. In addition, the Center and program stakeholders
would benefit from distinct guidance for firm fixed price tasks as well as time-and-
material and labor-hour tasks. Further, we suggest that the Center provide clarification
of the definition of “subordinate” in reference to the limitation of ODCs as compared to
services, as it is not clear as currently written in the contract.




                                         8                    FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY


Recommendations

   1. We recommend that the Center modify the STARS contract to clearly explain the
      conditions under which users can deviate from the ODC limitations set forth in
      the STARS contract.


Out of Scope Task Orders

The Center’s controls to prevent and detect out of scope task orders do not appear to
be adequate. Use of the STARS contract for other than its intended purpose also
jeopardizes the program.

The STARS program provides its clients with vendors that are collectively capable of
performing IT services in eight functional areas (FAs). Some STARS vendors are
eligible for tasks in only one FA, while other STARS vendors are eligible for tasks in a
number of FAs. The Center maintains lists of vendors capable of providing each of the
eight specific FA services.

OCOs are responsible for determining which FA is appropriate to the individual task. If
an OCO does not identify out of scope tasks or associates a task with an incorrect FA,
there is potential for misuse of the STARS GWAC; specifically, selection of the wrong
vendor, competition among the wrong vendors, award protests, and program abuse.
Repeated misclassification of tasks could eventually result in loss of the program.

To mitigate out of scope related risks, the Center provides OCO and vendor training and
reviews all SOWs for task orders issued under the STARS GWAC. However, despite
the Center’s OCO and vendor training and its 100 percent review of SOWs, we
identified task orders that did not appear appropriate for the STARS program and task
orders that were not appropriate for the FA solicited.

To test the controls, we reviewed the Center’s biweekly program review meeting
records and a judgmental sample of ten of the STARS program’s task orders, which
included seven of the largest task orders in the STARS program. The biweekly review
meeting records confirmed that the Center has periodically questioned OCOs and
vendors about the scope of task orders. In our sample of ten task orders, we
determined that the Center identified one task order that was outside the scope of the
STARS program and two task orders that were outside the scope of the FA. However,
we identified two additional task orders in the sample that also appeared to be out of
scope for the selected functional area or the STARS program that the Center did not
identify. While we identified control weaknesses in the sample, which included the
largest task orders, since the sample was judgmental, the results may not be
representative of the entire population.

   •   The SOW for one task order indicated that only about four percent of the task
       order was for development of a call center system. The remainder of the task



                                        9                 FOR OFFICIAL USE ONLY
                                                              FOR OFFICIAL USE ONLY

       order was to staff the call center operation and train call center staff. Four of the
       five labor categories on the SOW were not included under FA3, the FA
       designated for the order, or FA7, which covers call centers. Further, the
       experience required for key staff includes expertise in the client agency’s
       organizational policies and procedures, experience in the development and
       delivery of adult education, and real estate or residential finance experience.
       These experience requirements are clearly not IT services. Thus, this task order
       did not appear appropriate for the FA or the STARS program.

   •   The SOW for another task order indicated that the primary purpose of the project
       was to perform auto-enrollment services for a Government program through use
       of a call center. Although it appears that the first three months of the task were
       applicable to FA2 and the STARS program (planning and building computer
       system capacity to operate a call center), the remainder of the effort was for
       operation of a call center. Key personnel requirements include experience with
       the Government program’s regulations and enrollment system. These
       requirements are clearly not IT services. Thus, this task order does not appear
       appropriate for the FA or the STARS program.


   Recommendations

   2. We recommend that the Center take corrective action to address the out of
      scope task orders identified in our review.

   To better ensure that task orders are appropriate for the STARS GWAC and the
   specific functional areas utilized, we recommend that the Center:

   3. Focus task order reviews on the highest risk orders (task orders greater than $3
      million); task orders for the largest vendors and largest clients; and task orders
      with new stakeholders.

   4. Develop a standardized SOW review process to maintain consistency in scope
      review.


Disproportionate Subcontracting

The Center’s controls to prevent and detect disproportionate subcontracting also do not
appear adequate. Highly disproportionate subcontracting levels jeopardize the vendor’s
ability to develop its own staff and expertise. In addition, because of the STARS
program goal of developing small and disadvantaged business information technology
abilities, the program could face significant risks if subcontracting is not adequately
monitored and controlled. FAR 52.219-14, Limitation on Subcontracting, requires that at
least 50 percent of labor costs on 8(a) contracts be expended for employees of the 8(a)
vendor. 13CFR 124.510 has the same requirement and states that the 8(a) contractor



                                         10                   FOR OFFICIAL USE ONLY
                                                              FOR OFFICIAL USE ONLY

 must perform at least 50 percent of the applicable costs to date at six-month intervals.
Therefore, if an 8(a) vendor has subcontracted more than 50 percent of its work, after
the six-month period ends, it will have subcontracted disproportionately. While we
understand that the subcontracting limitation applies to the vendor’s total contract rather
than individual task orders, the semi-annual subcontracting reports allow the Center to
monitor the ratio on an ongoing basis, which is necessary to ensure that the contractor
performs at least 50 percent of the applicable costs for the combined total of all task
orders.

Through vendor training, the Center advises STARS vendors about disproportionate
subcontracting. The Center also requires STARS vendors to submit semiannual
subcontracting reports that include the total value of each task order, the value of work
completed, and the percentage of work completed by subcontractors. If a STARS
vendor does not provide timely and accurate subcontracting reports, the Center may
remove the vendor from the STARS program. Once disproportionate subcontracting is
identified, the Center can counsel the vendor on the need to monitor and manage
subcontracting levels to improve the ratio on future tasks.

To test current controls over disproportionate subcontracting, we reviewed a judgmental
sample of ten task orders, including seven of the Center’s largest task orders. For one
task order, we determined that the vendor relied on subcontracting for 95 percent of the
work. We also noted that several other tasks in our sample indicated a strong probability
of heavy subcontracting as the tasks continue. Accordingly, we expanded our review to
include an additional random sample of ten task orders from the remaining STARS task
orders and identified two additional task orders with very high subcontracting levels
(over 90 percent).

At the time of our review, Center officials advised us that due to personnel turnover,
they had not been able to review vendor subcontracting reports, but they planned to
review all the reports and follow-up with vendors reporting disproportionate
subcontracting levels. Center officials advised us that follow-up measures will consist of
warning the vendor that their contract could be in jeopardy and requesting an action
plan with specific steps the vendor plans to take to reduce overall subcontracting levels
for work performed under the contract. Center officials also stated that they would not
exercise contract options for noncompliant vendors. These procedures should serve to
enhance controls over disproportionate subcontracting.

An additional control the Center is considering is the implementation of FSS Contract
Management Center (FXC) reviews over STARS vendor contract compliance, including
subcontracting limitations. In discussions with STARS officials, we expressed concern
that vendors may be tempted to misrepresent unfavorable subcontracting levels in their
subcontracting reports once the Center denies the award of options for vendors not in
compliance with subcontracting restrictions. Center officials advised that they have held
preliminary discussions with FXC regarding the possibility of FXC conducting reviews of
STARS vendors. We believe implementation of FXC or equivalent reviews would greatly
enhance controls to ensure accurate subcontracting reports. We also suggest that the



                                         11                  FOR OFFICIAL USE ONLY
                                                             FOR OFFICIAL USE ONLY

Center could add questions regarding subcontracting levels to the information form
required from the OCO for each task order. This information would assist the Center
identify and address disproportionate subcontracting levels earlier.

As indicated above, we identified several task orders with disproportionate
subcontracting, which indicates that current controls need to be enhanced. However, we
recognize that the Center’s current control efforts are useful tools to educate
stakeholders and identify disproportionate subcontracting. We commend the Center for
proactively planning and considering additional controls, including follow-up on
subcontracting reports and implementation of FXC reviews, which we believe would
enhance current controls.


   Recommendation

   To compliment the Center’s current initiatives and further enhance planned controls
   related to subcontracting, we recommend that the Center:

   5. Develop standardized      procedure     for   timely   review   and   follow-up   of
      subcontracting reports.


Management Comments

We obtained agency comments throughout the audit and had open dialogue with the
agency throughout the review process. On December 20, 2006, the agency provided a
formal response to the report, stating that the Small Business Government-wide
Acquisitions Contracts Center has implemented all five recommendations contained in
this report. Management’s response is included in its entirety as Appendix A to this
report.


Internal Controls

Our review of internal controls was limited to controls as they relate to the Center’s
objective to improve vendor and OCO compliance with the FAR and the terms and
conditions of the STARS program. We determined that there were adequate controls
over OMB data accuracy, fair opportunity, split procurements, and other direct costs.
However, we identified control weaknesses over out of scope task orders and
disproportionate subcontracting.




                                         12                  FOR OFFICIAL USE ONLY
             FOR OFFICIAL USE ONLY




APPENDICES




             FOR OFFICIAL USE ONLY
                      FOR OFFICIAL USE ONLY



MANAGEMENT RESPONSE




      A-1             FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY

             REVIEW OF AWARD FOR STREAMLINED TECHNOLOGY
              ACQUISITION RESOURCES FOR SERVICES (STARS)
             GOVERNMENT-WIDE ACQUISITION CONTRACT (GWAC)
                   REPORT NUMBER A050213/Q/6/P07001


                                 REPORT DISTRIBUTION


                                                                           Copies

Commissioner, Federal Acquisition Service (Q)                                 3

Regional Administrator (6A)                                                   3

Assistant Inspector General for Auditing (JA & JAO)                           2

Special Agent In Charge (JI-6)                                                1

Audit Follow Up and Evaluation Branch (BECA)                                  1

Deputy Assistant Inspector General for Acquisition (JA-A)                     1




                                       B-1                  FOR OFFICIAL USE ONLY
